Supreme Court, U.S.
FILED

WAIVER

NOV 0 4 2019
OFFICE OF THE CLERK.

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Texas Brine Company, LLC

19-459
v.

Florida Gas Transmission Company, LLC, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

TIG Insurance Company

D I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by Bar memb
Signature
Date.

November 4, 419

(Type or print) Name

Angie Arceneaux Akers
D Mr.

Firm

D Mrs.

❑ Miss

Larzelere Picou Wells Simpson Lonero, LLC

Address

3850 N Causeway Blvd, Suite 500

City & State
Phone

0 Ms.

Metairie, LA

504-834-6500

Zip
Email

70002

aakers@Ipwsl.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Paul Hughes, McDermott Will & Emery, and James Garner, Sher Garner

LARZELERE PICOU
WELLS SIMPSON LONERO, LLC

Angie Arceneaux Akers
ATTORNEY AT LAW
aakers@lpwsl.com

04 November 2019
VIA U.S. MAIL ONLY
Clerk of Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Texas Brine Company, LLC v. Florida Gas Transmission Company, et al
Docket No. 19-459
Supreme Court of the United States

Dear Sir/Madam:
Enclosed is an original and one copy of the following documents which we are filing on
behalf of TIG Insurance Company in the captioned matter.
1. Waiver and Service List
We request that you please file the original and return a date-stamped filed copy in the
enclosed self-addressed stamped envelope.
Please let me know if the court requests a response to the petition for a writ of certiorari and
we will file within the deadlines set by the Court. Thank you for your courtesies and attention to this
filing and our request.
Kind regards,

Angie r Akers
AAA/rjr
Enclosures
See attached service list
cc:

RECEIVED
NOV 14 .7.019
OFFICE OF THE CLERK
SUPREME: COURT, U.S.

Suite 500 I Two Lakeway Center I 3850 N. Causeway Blvd. I Metairie I LA 70002 1504.834.6500 voice 1504.834-6565 fax

